No. 20 - 7258

IN THE
SUPREME COURT OF THE UNITED STATES

TOI HORN,
ESTATE OF EMMA M. HORN,
E&E FAMILY TRUST,
Petitioner(s)/infant, minor,
v.
FEDERAL NATIONAL MORTGAGE ASSOCIATION “FANNIE MAE” et al.,
Respondents.

PROOF OF SERVICE
(q
April, 2021, as
I, Toi J. Horn, do swear or declare that on this date,
Required by Supreme Court Rule 29 I have served the enclosed PETITIONERS’
REPLY BRIEF & MOTION TO STRIKE/DISREGARD RESPONDENTS
OPPOSITION on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery.
The names and addresses of those served are as follows:
Federal National Mortgage Association “Fannie Mae”
c/o Regina M. Slowey
Counsel of Record
PO Box 5041
Troy, MI 48007
Page 1 of 2

PROOF OF SERVICE
James E. Clarke,
Hugh J. Green,
Shannon Menapace,
Christine M. Drexel,
Brian Thomas,
Seterus, Inc.,
c/o ORLANS PC
Counsel for Parties
PO Box 2548
Leesburg, Virginia 20177

Nationstar Mortgage, LLC, d/b/a Mr. Cooper
c/o PO Box 619098
Dallas, Texas 75261-9741
Tichi Property, LLC
c/o Larry H. Kirsch
Counsel for Tichi Property, LLC
402 Long Trail Terrace
Rockville, Maryland 20850
Steven H Greenfeld, appointed Trustee
Cohen, Baldinger & Greenfeld, LLC
c/o 2600 Tower Oaks Blvd.
Suite 103
Rockville, MD 20852
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Z.

April, 2021

iM IT A (H— f ?o A
(Signature)

Page 2 of 2

Additional material
from this filing is
available in the
Clerk's Office.

